U.S. Department of Education Office of Inspector General Launches New DVD: 'Identity Theft: It's Not Worth it'
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Press Release
FOR IMMEDIATE RELEASE: Washington, DCThursday, January 18, 2007   U.S. Department of Education Office of the Inspector General Washington, D.C. 20202  Contact: Catherine Grant (202) 245-7023
U.S. Department of Education Office of Inspector General Launches New DVD: 'Identity Theft: It's not Worth It'
EDITOR'S NOTE: For a free copy of the DVD, please contact the U.S. Department of Education, Office of Inspector General, at (202) 245-7023.
The U.S. Department of Education's Office of Inspector General (OIG) today announced the release of its second DVD on the issue of identity theft in the student financial assistance arena.
Entitled "Identity Theft: It's Not Worth It," the DVD tracks how OIG, together with the U.S. Attorney's Office, U.S. Marshals Service, U.S. Postal Inspection Service, and Truckee Meadows Community College stopped a $1 million financial aid fraud scam, spearheaded by 64-year old grandmother, Ann Armstrong.
Along with four of her children and three of her grandchildren, Armstrong was convicted of using the identities of more than 65 people to fraudulently obtain federal student aid at various colleges in Arizona, Colorado, Maryland, Nevada, and Texas.
From January 2000 to March 2004, the Armstrongs obtained personal identifying information for various people and used it to enroll in distance education/on-line classes at colleges in those states. They applied for federal student loans and grants through the schools using these identities, submitting all information via e-mail or fax.
Checks for the loans or grants were sent in the students+ name to addresses provided on the applications which the Armstrongs then picked up, cashed, or deposited into bank accounts using false identification.
The fraudulent scheme was initially reported to the OIG by a financial aid officer at Truckee Meadows Community College in Reno, Nev. The financial aid officer observed that a number of students were applying for financial aid using the same addresses and telephone numbers. OIG initiated an investigation, ultimately leading to the filing of a criminal complaint and issuance of arrest warrants against the conspirators
In 2006, Ann Armstrong was sentenced to 57 months in prison and ordered to pay more than $662,000 in restitution. In the DVD, Armstrong discusses how she regrets her actions, and states that overall, "it's not worth it." Family members participating in the scheme also received prison sentences for their parts in the fraud.
"OIG is committed to fighting identity theft in student financial assistance programs by aggressively pursuing those who have committed fraud to obtain student financial aid," said John P. Higgins Jr., inspector general of the U.S. Department of Education. "We also work to educate potential victims and our partners in the financial arena on how to prevent it."
Since 2003, the OIG, together with the U.S. Department of Education's Office of Federal Student Aid, has conducted a public awareness campaign to alert students, schools, and other financial aid participants about identity theft via the OIG's special Web site, www.ed.gov/misused.
The site provides information on scams, suggestions for preventing identity theft, and resources on how to report identity theft involving federal education dollars.
In 2003 with the assistance of the Arizona Department of Public Safety, OIG produced its first DVD on this issue, entitled, "FSA Identity Theft: We Need Your Help." This report featured an individual incarcerated for student aid fraud who described the techniques he used to steal identities.
These DVDs are made available to schools and student groups, and the media upon request. For more information on the mission and activities of the Office of Inspector General, visit: www.ed.gov/about/offices/list/oig/.
Top
Printable view
Share this page
Last Modified: 01/19/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov